         '-




  Department of Health and Human Services
                               OFFICE
     INSPECTOR GENERAL





DISSEMINATION OF RESULTS OF AOA'

  DISCRETIONARY FUND PROJECTS





                      stRVICEs.
              -.r-




                                    Richard P. Kusserow


               1y 

                               l.   INSPECTOR GENERAL
                                       JUNE 1991
                       d3a 

         ;. 

  Deparment of Health and Human Services
                           OFFCE OF

     INSPECTOR GENERAL





DISSEMINATION OF RESULTS OF AOA'

  DISCRETIONARY FUND PROJECTS





                         tRVICES.



                                    Richard P. Kusserow
                                    INSPECTOR GENERAL
         '0


              1y
                                       OEI-04-91- 0011O
                   ~1t   d3a
                   EXECUTIVE SUMMARY

PURPOSE

This inspection was conducted to evaluate the dissemiation practices for discretionar   grant
projects supported by the Admnistrtion on Agig (AoA).


BACKGROUND

Title IV of the Older Americans Act authorizes a progr of discretionar funds to support
trg,     education, researh, and demonstration projects. All grant applicants ar required to
submit a plan describing how they wil disseminate their project results. Although AoA no
longer has a unit devoted to dissemiation, its sta contiue a number of dissemination activities.


FINDINGS

Accordig to the Older Americans Act, an integral par of the Title IV program is dissemination
of information gaied from the grant projects. AoA' s dissemiation efforts do not assure that this
information reaches other organizations who can use it.

      AoA relies priarly   on   grantees, whose capabilties var widely, for dissemination of
      project results.

      In evaluatig applications, the value assigned to dissemination activities has declined.

      AoA' s expanded guidace to applicants has had little impact on actUal dissemination
      activities.

      AoA does not adequately assess project outcomes to determine the utility of the
      information to others.

      AoA pursues a broad dissemination strategy with too limited resources.


RECOMMENDATION

AoA should assur the establishment and adequate funding for a permanent function , responsible
for dissemination of results of discretionar fund projects.
COMMENTS

The drt report was circulated for comment to the Commssioner on Aging, the Assistat
Secrtar for Legislation (ASL) and the Assistat Secreta for Planning and Evaluation (ASPE).
The ASL had no comments; ASPE concured with the fmdings and recommendation. AoA
found our report to be accurate and the recommendation relevant. In her response, the
Commssioner on Aging also summarzed the agency s curent and planned dissemination
activities.
                          ....................
                                             ........ ..................
                                          .. ................
                                                ........  ........          ...............................................................
                                                               ..................
                                                                        ..................
                                                                                  ..................
                                                                                              .................................................
                                                                                                     ..........................................
                                             ..........................................................      .... ...... ............ ........ .




                         TABLE OF CONTENTS

EXECUTIV SUMMARY
INRODUCTION.................................................................................................... ..

       Purose ......

       Background.............. .................. ............ .................................... ..........................


        Scope.... .... .... .... .......... 


        Methodology ................ .. ....................................................................................... 3


FIN IN GS .................................................................................................................. 4


        AoA Relies Prmarly on Grantees, Whose Capabilties Var Widely, for
        Dissemination of Project Results ...................................... ............ ......................

        In Evaluating Applications, the Value Assigned to Dissemination Activities
        has Declined.. .......... .................. ...........................................................................

        AoA' s Expanded Guidace to Applicants Has Had Litte                                                Impact on Actual
        Dissemination Activities...... ...................... ............ ..............................................

        AoA Does Not Adequately Assess Prject Outcomes to Determne

        the Utiity of the Information to Others ..............................................................


        AoA Puues a Broad Dissemination Strategy with

        Too Limited Resources .............................................. .......... ................................


 RECO MMEND A TIO N

 AGENCY CO MMENTS

 APPENDIX A:                AoA Comments............................................................................ 

                                             ...                                     '"         , "





                                     INTRODUCTION

 PURPOSE

 Ths inspection was conducted to evaluate the dissemiation practices for discretionar          fund
 projects supported by the Admistrtion on Agig (AoA).


 BACKGROUND

 The Admistrtion on Aging was established in 1965 by the Older Americans Act (OAA).
 Through formula grants, AoA gudes and assists states and communities to develop and
 implement services for elderly persons. The agency also admnisters a discrtionar funds
 progr.
 AoA     Discretionar Funds Program

 Title IV of the Older Americans Act authorizes a progr of discretionar funds to support
 trning, education , research and demonstrations, as well as dissemination of information. For
 FY 1991 , $25. mion has been alocated to the Title IV program. This is two percent more
 than the 1990 budget, when a tota of 140 new grts were awarded.


 The purose of the Title 
           discrtionar funds   progr, as stated in the Older Americans Act, is
 to,
            expand the Nation s knowledge and understading of aging and the aging process,
           to design and test innovative ideas in progrs and services for older individuals,
           and to help meet the needs for trned personnel in the field of aging though

           (1)        education and trning
           (2)       research. ..
           (3)        demonstration projects ..- and
           (4)        dissemination of information... acquired though such programs...

  Includin g dissemiation as an integral par of the program establishes that the information gained
  from the projects should extend well beyond the initial grtees- Effective dissemination
  promotes utiization by others in the field, and avoids subsequent researchers reinventing the
. wheel." The authorizing legislation recognizes the need to disseminate project results in order to
  gai full benefit from the resoures expended on each project.

 In prepartion for the reauthorization of the OAA in 1991, the House Subcommittee on Human
 Resources of the Select Committee on Agig is holdig a series of hearngs. One hearng, in
 September 1990, focused on the Title IV progr, parcularly the effectiveness and usefulness
 of dissemination efforts. The General Accounting Offce (GAO) presented testimony on a
 survey of all state agencies on aging to determne their use of Title IV results. GAO said While
Title IV dissemination is having some positive impact, it is not achieving maximum results ...
AoA does not have a comprehensive dissemiation strategy.

Disseminaton Practies in Other HHS Agencies

Dissemination of project results is important to many HHS agencies which support research and
demonstrtion projects. The Deparent has no standad process to assure effective
dissemination of the results of grant projects. Dissemiation is handled differently by the
varous operatig       divisions of the Deparent.

For example, each of the National InstitUtes of Health maintai public informtion offices.
These offces, to varing degres, disseminate the results of projects funded by their agencies.
However, accordig to the National InstitUte on Aging s (NI) Public Information Offce, NIA
grantes, lie those funded by other branches of Nl , generaly do not rely on the Institute to
dissemiate the results of their projects. Rather, grantees seek to publicize their own results,
which commonly focus on medical and biological issues, in professional jourals and forums.

Under the Public Health Service, the Maternal and Child Health Bureau has a cooperative
agreement with the National Center for Education in Maternal and Child Health at Georgetown
University to handle dissemination of the grants funded by the agency.

In the Health Care Financing Admnistrtion     (HCFA),    grantees can, with approval from HCFA
dissemiate the results of their own projects, but ar   not   required to do so. HCFA routinely
sends all approved fmal project reports to an information clearnghouse.

In another example, the Offce of Human Development Services (OHDS) instrcts applicants
that dissemiation is an essential priciple of its grt progr. However               Federal
                                                                             , in the 1990

Register announcement, dissemiation activity was drpped as an evaluation criterion for rating
grant applications.


SCOPE OF THIS INSPECTION

This stUdy evaluated dissemination of the results of AoA' s discrtionar fund projects. It
examned both the grtees ' and the agency s dissemination activities. All AoA discretionar
grants admistered by the AoA central offce, and completed between April 1 , 1989 and March
    , 1990 were included in the scope of the study. Grants that were completed within this time
period had responded to the announcements published in the     Federal Register 
 for fiscal years
1985 though 1988.

For informtion about dissemiation  activities of the agency, OEI staf interviewed professionals
within and outside AoA who ar familar with the discretionar funds program. AoA staff
included regional and centr offce administrators and project offcers from the Title IV
progr. Outside organizations included: the Gerontological Society of America, the
Association for Gerontology and Higher Education , the National Institute on Aging, the
American Association of Retired Persons, and all information clearnghouses used by AoA.
METHODOLOGY

A list of the grts completed between April 1, 1989 and March 31 , 1990 was obtaned in August
1990 from OHDS' s Grants Management Information System (GMIS). Those 88 grnts were
classifed by tye (researh, traiing, and demonstrtion). A sample of 30 was selected for study.
Since there were only 5 research grants, all were included in the sample. The remaider of the
sample was selected using a random number generator.

OEI staf examned the project fIes for each grt to determne what dissemination
commtments were made when the grant application was accepted for fundig, and what
dissemiation activities were subsequently reported in the quarerly progress report and the final
report. Since the offcial fies, which are maintaned by OHDS, ar sent to archives when the
project closes, the project offcers ' fies were used for this stUdy. The project offcers usually
maita a copy of al items that ar in the offcial file, but they ar not   required   to have copies
of al offcial papers including the final reports. In fIes where the final report was missing, the
project offcers provided inormation on the projects ' dissemiation activities. In some cases, the
grantees were interviewed by phone to confi or supplement the recollections of the project
offcers.
                                      FINDINGS

Accordig to the Older Americans Act, an integral par of the Title IV program is dissemination
of information acquired from the grant projects. AoA' s dissemination efforts do not assure that
this inormation reaches other organizations who can use it.


AOA RELIES PRIARILY ON GRANTEES, WHOSE CAPABILITIES VARY
WIDELY, FOR DISSEMIATION OF PROJECT RESULTS

AoA has relied on its grtees to tae the lead responsibilty for dissemination of project results,
accordig to AoA offcials. One of the distinguishing charcteristics of AoA' s discretionar
funds progr is the wide varety of grantees, raging frm smal nonprofit community
organzations to major national gerontological associations and universities. The capabilities of
these organzations to effectively dissemiate their project results var. Despite the range of
abilties, the legislation requires al research and demonstration grts to " include provisions for
the appropriate dissemiation of project results. " Furer, the Federal Register  announcement
indicates that al applicants wil be evaluated in par on how they plan to disseminate their
products. The result is most grtees submit minimal dissemination plans while some plan more
extensive activities.

Experts generaly attrbute the dierence in dissemiation activities to the resources and
reputation of the grtee. Some grtees, with a wide network of contacts, sufficient resources,
and experienced sta, dissemiate their project results extensively and effectively. For example,
one grtee, a national business organization provided the funds to publish the project s report
on retiment planning and send it to the human resource executives of leading corporations in
the U. S. Ths organization also had the connections to anange presentations at forums such as
breakast meetigs of business executives acrss the countr. However, most grtees do not
demonstrte such capabilties in their dissemination activities.


IN EVALUATING APPLICATIONS, THE VALUE ASSIGNED TO DISSEMINATION
ACTIVITIES HAS DECLINED

The criteria for evaluating applications ar   published in   the            announcement of
                                                                   Federal Register



the availabilty of discretionar funds. A panel of expert from outside the Federal Government
comments on and scores the applications. The criteria and the value assigned to each one have
changed over the year,    but generaly include:

                  need for, or objectives, of the project
                 methodology or approach
                  results or expected outcomes/benefits
                  dissemination! utilzation   plan
                  level of effort or staff background and resources
AoA requies projects to include a dissemination plan. However, the relative importance of the
dissemination crterion in the proposal-ratig process has declined. In 1987 each of the criteria
was wort the same amount - 20 points. Over the year, the point values assigned to the five
crteria have shited. The                                                   points in 1983
                                      dissemination crterion has been reduced from                   20


though   1987, to 15 points in 1988, and only                          10   points since 1989.


AOA' S EXPANDED GUIDANCE TO APPLICANTS HAS HAD LITTLE IMPACT ON
ACTUAL DISSEMIATION ACTIVIES

At the same    tie
                 that AoA has been reducing the value assigned to the dissemination criterion
the agency has been giving the applicants more substative guidace on dissemination.

Pror to 1988,     the guidelines in the             Federal Register              for the dissemination crterion instrcted
applicants to describe:

                     the methods for sharing their findings,
                     the steps to promote utilization of products, and
                     the specifc audiences to be adressed.

Starng in 1988,        the instrctions           became more deliberate and precise. In 1988, applicants were
asked to add:

                     a description of why the proposed steps are expected to be successful in

                     disseminating the products and findings;

                     reasons why specifc audiences wil benefit; and

                     detailed steps to get the products adpted by the audiences.


The 1989 and 1990 announcements                     contan a separate section on dissemination. Applicants are
notied that they ar          expected to          be awar of projects in the same area as their proposal. To help
locate related projects, the announcement gives a list of sources for trcking CUITent and previous
AoA-sponsored projects. Furher, these announcements provide the following principles of
dissemination, and advise applicants to consider them in developing their applications:

                      The most widely utilzed projects make dissemination and utilization a central
                      aspect of the project, not a peripheral one.
                     Dissemination starts at the beginning of a project.
                     Potential users should be involved in planning.
                     Products should be prepared with the needs of potential users in mind.
                     Dissemination is a networking process.
                     At a minimum, dissemination includes getting your final products into the hands
                     of appropriate users and maing presentations at conferences.
                     Coordination with other related projects may increase the chances of your
                     products being used.

Review of the dissemiation plans in grant applications did not reveal a qualtative difference
between plans submitted prior to 1988 and those responding to the 1988 announcement, when
the instrctions became more detaed. Both         before and after 1988, plans list a few stadard
dissemiation activities. The most frequently mentioned activities ar: submitting to
professional jourals for publication, applying to present results at professional conferences,
includig project descrption in state and local newsletters, and makng presentations at local!
professional meetigs.

Most projects included in this study responded to the 1987 and 1988 announcements. This stUdy
did not cover projects initiated in 1989 or 1990. However, project offcers said they have not
noticed a signifcant difference in the quality of the plans submitted in the past two years,
compard to previously.

This review found that 90 percent of grants completed between April I , 1989 and March 31,
1990 implemented the dissemination plans that were proposed at the outset of the projects.

However, the grtees ' dissemination plans do not go far enough to assure that project results
reach those who are most likely to use them. Accomplishing this requirs the kid of efforts
AoA has descrbed in its gudelines for dissemiation since 1988. Even though the grantees
plans fail to adhere fully to the dissemination guidelines, the projects continue to be approved for
fundig since the dissemiation criterion accounts for such a small porton of the overall
evaluation score.

Accordig to project                              AoA, the miimal dissemination activities of
                       offcers and experts outside

grantees can be trced to the lack of emphasis from AoA, as well as insufficient time and funds,
and lack of capabilty of smal grantees.




AOA DOES NOT ADEQUATELY ASSESS PROJECT OUTCOMES TO DETERMINE
THE UTILITY OF THE INFORMATION TO OTHERS

AoA' s procedurs place heavy emphasis on evaluation of grant        applications      for feasibility and
utity of results. However, once the project is completed, the     final results 

                                                                                    are not adequately
assessed for their potential utility to others in the field.

The purpose of AoA' s grant projects is to test new and innovative ideas. Because they explore
heretofore untested approaches, some projects wil not meet expectations. Since AoA does not
adequately review all completed projects, those that should be replicated ar not distinguished
from unsuccessful projects and projects whose results ar less useful to others.

The same project close-out proedure is followed for all projects. All final reports are sent to the
information clearnghouses. Here the good, new ideas may get lost in the volume of final reports
released each year.

Respondents most often noted the lack of resources, including staff, as the main reason AoA
does not follow a thorough , systematic process for reviewing completed projects. Additionally,
some feel that AoA' s offcially judgig the relative utility of the projects would politicize the
process. Despite these diffculties, a number of outside expert feel assessing project results and
targetig them to specific users would greatly incrase the application of project results by
others. In fact, severa experts with outside organizations said that projects must be evaluated
and s ummar zed fist, before effective dissemiation can occur. One major organization said its
policy is to review al of its own projects to determne which ones to include in their
database/librar and to select the ones they wil disseminate more extensively. An offcial with a
major organzation in the field of aging commented that, " trly responsible dissemination goes
way beyond rote dissemination plans... this organization spends half of its tie on dissemination
activities. "

AOA PURSUES A BROAD DISSEMINATION STRATEGY WITH TOO LIMITED
RESOURCES

Respondents noted a number of problems with AoA' s dissemiation efforts. Congress withdrw
authorization for the agency s internal information clearghouse in 1981. AoA has not had a
sta devoted to dissemiation since then. In addtion , fundig for the TItle IV progr has been
reduced drasticaly from a high of $54 milion in 1980 to $26 millon this year. In spite of these
reductions, the agency s staf has tred to maintai a wide rage of dissemiation activities, along
with their other duties.

AoA' s dissemiation activities include:

                sendig reports to inormation clearnghouses
                holdig meetings of grantees workig on similar projects
                convenig regional dissemination conferences
                publishig booklets, a magazne, and information memoranda

                supportng 11 resource centers.


Clearinghouses

Using clearnghouses as a method of dissemination is essentially passive. Technically, the
reports ar               an organization or individual must take initiative to obtain them.
                avaiable, but
Gettg a repon out of these archives requirs famliarty with database research and access to
the computerized soures. Additionally, users of the clearnghouses do not have a means of
distiguishing excellent projects from those of less utiity without looking at each report.

AoA sends all final reports and products to the following information clearnghouses:

                     National Technical   Informtion Service (NTIS)
                     AgeLine Database
                       S. Governmenr Prinring Offce

                     Project SHARE (closed August 31, 1990)

The clearnghouses fIe the projects '   fial reports in a computerized information system. Only
NTS had information on the number of requests for AoA reports. Over the past ten years, NTIS
fied an average   of the requests per month.

AgeLine is a commercialy avaiable database admistered by the American Association of
Retid Persons (AARP). AARP selects some of AoA's reports for inclusion in its database. The
most frquent users of AgeLine are faculty and stUdents.

The Governent Prnting Offce sends microfiche copies of projects ' fmal report to the
depository librares that have requested in advance to receive the general category of
publications that includes AoA reports.

Cluster Meetings and Networking

One of the priciples of dissemination is linkng people and organizations and vigorously
encouragig netWorkig activities. AoA' s formal and informal efforts in this ara are hampered
by lack of funds and lack of procedures for apprising staf of signifcant projects.

AoA has implemented the priciple of netWorkig though cluster meetings. AoA funds several
grants in a given area, for example elder abuse, for the same project period, and convenes
meetigs of the grantees to discuss the projects. Project offcers are enthusiastic about this
approach and feel the grtees lear from each other. Factors that hamper " clustering " include
lack of funds to bring grtees together more frquently, and the very common practice of
approvig grtees ' requests for time extensions. When extensions ar granted, " clustered"
projects are no longer on the same schedule, and therefore the grntees cannot share their full
fmal results at the fmal meetig.

Some project offcers have linked new and former grantees with similar interests informally
when there is no formally recognized cluster. However, among project offcers, there is
considerable varation in involvement with grantees. According to AoA offcials, there is no
provision to keep AoA staf apprised of the Title IV projects outside of each offcer s immediate
responsibility. This general lack of an information netWork within AoA inhibits the distrbution
of information by staf to grantees. In addition, AoA does not routinely cover the costs for staff
to attend national conferences on aging. These conferences provide opportunities for
professionals to form netWorks which facilitate exchange of information.

Federal Regional Offices ' Disseminaton Activities

A number of AoA central and regional offce staf feel a major weakness in the use of existing
resources is failing to include regional offces in more dissemination activities. Regional offces
are geographically closer to the recipients of AoA funded services and have the potential to
contrbute substantially within existing resoures. Accordng to one aging specialist, the regional
offces could, " function as the eyes and ears of the Commissioner and be a conduit of
information. "

Severa respondents noted that the curnt Commissioner has formally convened a number of
                                 priority
grssroots roundtables to identiy 
          areas. They feel that an informal network through the
regional offces could build on the Commssioner s current efforts to get local input. One
regional admnistrtor of AoA said that dissemination effort could be improved by staring at
the begiing of the funding process. He felt regional offces could help identify research needs
and thereby also identify the potential users of project results.

Since 1983, the Offce of   Prgr  Policy and Legislation in the Office of Human Development
Services has sponsored regional meetings to disseminate information on discrtionar grants,
includig AoA' s, and to encourage formation of networks among interested pares. The
meetigs are convened by the federa regional offces. OHDS considers the meetings to be
successfu. However, only nie meetings ar scheduled for 1991.

AoA Publicatons

AoA prouces a number of publications that are distrbuted nationally. Several respondents
noted that some of these publications would be better utilized if they were targeted to specific
audiences. For example, a project offcer suggested that one of the recent publications,
Dissemination By Design,          should be given routiely to all grtees. This booklet describes
effective dissemination priciples and practical techniques for disseminating information. A
frequent suggestion concerned the         Compendium of Active Grants. 
 Many respondents suggested
that the compendium would be more useful if done as a cumulative volume which describes all
completed, rather than ongoing, projects arged by subject area.

National Aging Resource Centers

A number of AoA sta say the resource centers ar AoA's most effective means for " getting the
word out. AoA funded 11 resource centers acrss the countr for 3 years to provide training,
technical assistance, short term research, and infonnation dissemination for state and area
agencies on aging and others serving elderly people. Most of the centers ar located
universities. Each one focuses on a specific area of aging, such as long term care, elder abuse
health promotion , miority populations, and rual elderly. The future of the centers is uncertain
since the funding termates in 1991.
          . .. - -. . .




                               RECOMMENDATION

The Admistration on Agig, with limited resources for dissemination, has engaged in a broad
                                                               sttengthen and better
range of activities to dissemiate results of its Title IV projects. To 

coordiate these efforts, the Inspector Genera makes the following recommendation.

          AoA should assure the establishment and adequate funding forprojects.
                                                                          a permanent
                                                                                 This function,
                                                                                       could be

                                                      discretionar fund
          responsible for dissemination of results of      would include:
          done internally or by contrct. Responsibilti

                     providing a focus for AoA' 

                                                      various dissemination activities;


                      in the grant application review process, reconsidering the dissemination
                      criterion and the point value assigned to it;
                                                                                                  utility to

                          establishing and maintaining a process to assess project outcomes for
                          others;

                          developing methods to assist grantees who lack the resources and expertise to
                          target replicable results to potential users;

                          evaluating the role of clearinghouses in an overall dissemination strategy and
                          using clearinghouses accordingly; and
                                                                              regional offces on aging in
                           establishing and implementing a role for federal
                           disseminating project results.




                                                              10.
                    AGENCY COMMENTS

The Commssioner on Aging, in commenting on the report summarzed AoA' s ongoing
dissemination activities. The Commssioner furher described AoA' s plan to fund a 3 year
                                                        grt
cooperative agreement to evaluate and disseminate Title IV   products. Appendix A contains
the full text of the Commissioner s comments.

The comments from the Assistat Secreta for Planning and Evaluation concur with the report.
The Assistant Secrta for Legislation had no comments.
APPENDIX A

  AoA Comments

       '" - =:                                                   ,,,,,	                                      =:
                                                                                                             =: ('
                                                                                                             --         ;.




I A'             '-3 - '3 1   1"1   0 t-   15:1':.   HHS ,0IG- H E A D    1;1 U ART   E R	                        €!2

                 DEPARTME T Of HE. LTH &. HU.ItAN SEiVICES	
                                                                                             Of   of 118   s.et
             Administration on Aging                                                         Washngton. D.        20'


                                                                                                                             M ::
                                                              A \00\	                                                        r1' m
                                                                                                              - :=;z-­
                                                                                                                m_

                                                                                                                             VI


             TO:	                     Richard P. Kusserow

                                      Inspector General


             FROM:	                   u. s. Commissioner on Aging
                                                                                                                  Is
             SUBJECT:	                 OIG Draft Report: "Dissemination of Results of AoA
                                       Discretionary Fund proj ects, " OEI-04-91-00110


             We have revie ed your report on the dissemination efforts of
             the Ad inist=ation on Aging (AoA). We find that the report is
             acc	           e recommendations for improving our
                                  are relevant.
                    e and


             disse ination system

             At the same time, we feel that the draft report does not  pay

                                                                   has been

             su::icient attention to the considerable effort that 

             made in            this area.
                                 For a n   er of years, AoA has awarded
                                                                  ation.
             grants to projects essentially to disseminate info

             Exa ples of sucb projects include the eleven National  Aging
                                                              the provision
             Resource Centers with major responsibilities for
             of technical training and assistance and information     ination
             dissemination. The usefulness of the information Qisse

              o the States by these Centers was acknowledged in a recent

             General Accounting Office (GAO) study presented to the House

             Select Committee on Aging on 9/11/90. Other projects funded

             have disseminated in!o ation on health promotion and senior
                 centers.
                 Taking into consideration both your report and the GAO
                                                                                                  study,
                 we have begu to address the issues raised by both                            agencies.
                 Our Announcement of the FY 1991 Oiscretionary Grant agreement,                Program
                 will include the award of a three                           year cooperative
                 for up to $300, 000 per year, to actively and systematically
                 evaluate and disseminate Title IV grant products and to examine

                 gaps in research, demonstration, training and practice in 

                 field of            aging. I       believe that this prospective cooperative
                                                                                                     area.
                 ag=eeme t    will        assist            us in making major progress in this
